OFFICE OF THE ATTORNEY GENERAL
Criminal Appeals Division, Tallahassee

 

 

TRISHA MEGGS PATE
Bureau Chief, Criminal Appeals
ASHLEY B. MOODY The Capitol
ATTORNEY GENERAL Tallahassee, Florida 32399-1050
STATE OF FLORIDA Telephone (850) 414-3300

Fax (850) 922-6674

 

 

October 29, 2019

The Honorable Scott S. Harris, Clerk
United States Supreme Court

One First Street, N.E.

Washington, D.C. 20543

Re: Aivaras Mardosas v. State of Florida
Case No. 19-513

Dear Mr. Harris:

The State of Florida recently received a copy of the Petitioner’s Petition for
Writ of Certiorari. Please be advised that the State of Florida will continue to
follow its long held position on these matters and will respectfully decline to
answer petitions filed in non-capital cases unless the Court requests a response. If
the Court requests a response, the State of Florida will provide one.

Uh submitted

jo

Mh MEGGS PATE
Bureau Chief,

Tallahassee Criminal Appeals
Fla. Bar No. 0045489
(850)414-3300

cc: Miguel Coder, Esquire
